Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




    Institutional   Review Boards: 


       Promising Approaches 





                     JUNE GIBBS BROWN
                      Inspector General

                          JUNE 1998
                        OEI-01-91-00191
                         OFFICE OF INSPECTOR                  GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through
a nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                          Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI’s Boston regional office prepared this report under the direction of Mark R. Yessian, Ph.D.,
Regional Inspector General. Principal OEI staff included:

REGION                                                 HEADQUARTERS

Elizabeth A. Robboy                                    Lisa Foley
Nathan P. Rouillard
Laura C. McBride
Dana M. Miller




       To obtain copies of this report, please call the Boston Regional Office at (617)565- 1050.
         Reports are also available on the World Wide Web at our home page address:

                                 http://www.dhhs.gov/progorg/oei
                        EXECUTIVE                      SUMMARY

PURPOSE

        To identify promising approaches that institutional review boards use to enhance their
        effectiveness and efficiency in protecting human subjects.


BACKGROUND

Role of Institutional    Review Boards

        Institutional review boards (IRBs) play vital roles in protecting human research subjects.
        They review initial research plans to make certain that the plans provide subjects with
        adequate opportunity to provide informed consent and do not expose subjects to
        unreasonable risks. They also conduct continuing review of approved research to ensure
        that human-subject protections remain in force. They carry out their initial and
        continuing review functions in accord with Federal regulations first established in the
        1970s and applicable to all research funded by the U.S. Department of Health and Human
        Services or carried out on products regulated by the Food and Drug Administration.

        In carrying out their responsibilities, IRBs face challenges posed by a changing research
        environment. Advances in genetics research, a proliferation of large-scale trials, and the
        blurring definitions of research and therapy make research increasingly complex to
        review and oversee. Across the country IRBs are inundated with research plans and are
        under enormous pressure to review them quickly. At the same time, many are finding it
        difficult to recruit and maintain members. Despite these challenges, many IRBs have
        developed innovative strategies for reviewing research plans and for providing
        educational outreach. Yet, in this environment there is little time for the sharing of
        promising approaches among the thousands of IRBs in existence.

Promising Approaches:       The Focus of this Report

        This report focuses on promising approaches of IRBs. One of 4 reports we are issuing on 

        IRBs, it draws on interviews and group discussions with representatives of about 

        75 IRBs; site visits to IRBs in 6 academic health centers where extensive clinical research 

        is taking place; reviews of Federal records and pertinent literature; and attendance at IRB 

        meetings. 


        The promising approaches included here address six key areas of responsibility for IRBs. 

        Within each area, we have chosen promising approaches that seem to have potential for 

        multiple IRBs. We recognize, however, that what works well in one IRB may not 

        necessarily work well in another. 





                                                 i           OEI-01-97-00191 IRBs: Promising Approaches
PROMISING        APPROACHES

Managing the Workload

       To reduce workload pressures, many institutions are creating multiple IRBs and/or
       increasing the number of IRB meetings. Some institutions are creating specialty IRBs,
       such as dental, medical or social science IRBs to ensure that board members have
       sufficient expertise to assess research plans. Other institutions maintain general-purpose
       IRBs but stagger their meetings. One IRB staggers its four board meetings so that there is
       an IRB meeting every week. A research investigator submitting a research plan to this
       IRB will have his or her plan reviewed by the first available board. The waiting period is
       generally no longer than one week.

Providing Educational   Outreach to Research Investigators

       To ensure that all research investigators receive minimal training about human-subject
       protections, some institutions require their research investigators to attend mandatory
       training programs. A dean at one institution will not sign off on approved research until
       investigators have attended a 2-day workshop. According to IRB staff, this method
       provides a powerful political message to all investigators about the importance of human-
       subject education. Another institution requires all of its investigators to complete an on-
       line tutorial about human-subject protections. This tutorial, which takes an hour to
       complete, provides a base level of education for a nominal fee to the institution.

Reviewing Approved Research

       Using a third party to oversee research is an effective technique for IRBs that do not have
       the time to observe the research process themselves. One IRB requires a research
       intermediary to interact with all psychiatric patients involved in research projects.
       Among other things, the research intermediary discusses the consent form with patients
       after the form has been signed to ensure that upon reflection, patients continue to want to
       participate in the research. Every few months, the research intermediary reports to the
       IRB about patients’ concerns and the ways in which the consent process and/or research
       could be made more efficient and less obtrusive for patients.

Providing Educational   Outreach to IRB Members

      Educating IRB members is an important strategy for ensuring that they have adequate
      expertise to assess research plans. One IRB sends its members literature relevant to the
      research plan being discussed. This approach has been particularly beneficial to help
      orient new members to the ethical issues they should consider when reviewing protocols.
      Another IRB devotes a portion of each meeting to education. A benefit of this type of
      education, according to the IRB director, is the ripple effect it can have with other
      researchers in the institution. For example, after a recent meeting where AIDS trials were
      discussed, two of the physician members shared the discussion with their residents.


                                                ii          OEI-01-97-00191 IRBs: Promising Approaches
Broadening   Perspectives in the IRB Review Process

       A strategy for providing thoughtful, fair review is to continually maintain contact with the
       community in which the research takes place. One IRB established an Office of Ethnic
       Diversity in Research to help it identify barriers the community faces when participating
       in research and potential strategies to overcome these barriers. For example, many in the
       community are unaware of what being a research subject entails and they associate the
       hospital with treatment rather than research. Through community outreach, the IRB has
       become sensitive to the need to further simplify consent forms in order to impress upon
       potential subjects that they are participating in research.

Evaluating   IRB Effectiveness and Efficiency

       To improve its operations, one IRB performed a two-pronged self-evaluation. First, it
       convened a group of faculty members to perform a month-long evaluation of its
       operations. Second, it hired an outside monitor to assessresearch protocols for regulatory
       compliance and to interview investigators about their interactions with the IRB and their
       experiences with the review process. Both evaluations were helpful in highlighting areas
       that needed improvement, such as increased resources for the IRB, changes in the
       reporting structure, and more support from the University. The resultant changes have
       also helped to create better relations between researchers and the IRB.


CONCLUSION

       Despite the challenges posed by the new research environment, IRBs have employed
       many promising approaches to enhance their effectiveness and efficiency. A key
       challenge to the Federal government is to find ways of giving IRBs the flexibility to
       develop innovative approaches while at the same time holding them accountable for
       performance. This is a matter we address in our summary report entitled, Institutional
       Review Boards: A Time For Reform.


COMMENTS          ON THE DRAFT REPORTS

       Within the Department of Health and Human Services, we received comments on our 

       four draft reports from the National Institutes of Health, the Food and Drug 

       Administration and, jointly, from the Assistant Secretary for Planning and Evaluation and 

       the Assistant Secretary for Health. We also solicited and received comments from the 

       following external parties: the Applied Research Ethics National Association, the 

       American Association of Medical Colleges, the Consortium of Independent Review 

       Boards, and Public Citizen’s Health Research Group. We include the detailed text of all 

       of these comments and our responses to them in appendix D of our overview report, 

       Institutional Review Boards; A Time for Reform (OEI-01-97-00193). In the executive 

       summary of that report, we summarize the thrust of these comments and our responses. 



                                                111         OEI-01-97-00191 IRBs: Promising Approaches
                              TABLE                          OF CONTENTS
                                                                                                                                              PAGE
EXECUTIVE           SUMMARY

INTRODUCTION                . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..l

IRBs: THE BASICS . . . . . _. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .3 


PROMISING APPROACHES

          ManagementoftheWorkload                          . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...4 


          Educational Outreach to Research Investigators ................................                                                               8


          Continuing Review of Approved Research ...................................                                                                12 


          Educational Outreach to IRB Members ......................................                                                                15 


          Broadening Perspectives in the IRB Review Process ...........................                                                             17 


          Evaluation of IRB Effectiveness and Efficiency                               ..............................                             .20 


CONCLUSION              ............................................................                                                            ..2 2 


APPENDICES

          A:Endnotes          . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . A-l




                                                                                            OEI-01-97-00191 IRBs: Promising Approaches
                              INTRODUCTION

PURPOSE
       To identify promising approaches that institutional review boards use to enhance their
       effectiveness and efficiency in protecting human subjects.


BACKGROUND
       On page three we offer a primer on IRBs: why they were established, what roles they
       perform, how they are organized, where they are located, and how they are overseen by
       the Department of Health and Human Services.

Establishment   of Institutional   Review Boards

       In the 1970s in the aftermath of some widely publicized abuses involving human subjects
       in clinical research, the Federal government began establishing a set of requirements
       calling for institutional reviews boards (IRBs) to protect human subjects. The IRB
       system was originally envisioned as a decentralized system in which research was to be
       overseen at the local level. Most of the early IRBs were established in the large teaching
       hospitals and medical centers, where nearly all clinical research was conducted.’ At the
       time that the regulations were established, research studies were typically conducted by a
       single research investigate? with a few subjects.

Challenges Facing Institutional     Review Boards

       The environment in which IRBs operate has changed significantly in the past two
       decades. Managed care, with its emphasis on cost control, is squeezing research support
       at academic health centers and limiting providers’ time for administrative duties such as
       IRB participation. The proportion of research that is commercially sponsored has grown?
       The locus of clinical research has shifted from single-site trials to large multi-site trials
       conducted across the country, even the world.4 Biomedical research is constantly
       expanding into new frontiers such as gene testing and gene therapy. Many of these new
       research directions raise complicated questions about human-subject protections and
       challenge our notions of informed consent. When IRBs were first established, research
       was viewed as burdensome rather than beneficial to human subjects and something to be
       protected from. Now, many people with lethal diseases are demanding access to the most
       advanced treatments, even when these treatments are experimental.

       These changes have had a significant effect on IRBs across the country. Many are
       inundated with research proposals’ and are overwhelmed by adverse-event reports from
       sponsors. Many IRBs are not sufficiently supported by their institutions. A number of
       IRBs are having difficulty recruiting and maintaining members, particularly physician


                                                   1         031-01-97-00191 IRBs: Promising Approaches
       members. At the same time, they are under enormous pressure to review protocols
       quickly. Despite these challenges, many IRBs have developed innovative approaches to
       improve their effectiveness and efficiency. Yet, in this environment there is little time for
       the sharing of promising approaches among the thousands of IRBs in existence!

This Inquiry   and this Report

       In the wake of many changes transforming the world of clinical research, there is renewed 

       interest in human-subject protections and the role of the IRB. A 1995 report issued by the 

       Institute of Medicine (IOM) recommended a study on lessons learned about effective IRB 

       functioning.7 The National Bioethics Advisory Commission (NBAC) is currently 

       examining the state of these protections and is pursuing information about IRBs.’ 


       This report, which is one of four we are issuing as part of a broad inquiry of IRBs, 

       focuses on promising approaches of IRBs? In determining what to characterize as a 

       promising approach, we depended on the judgements of IRB members and 

       administrators, consultations with IRB experts, and our own judgement of whether the 

       approach was significantly different and important to warrant attention. The promising 

       approaches included here appear to have potential in numerous IRBs, although we 

       recognize that what works well in one IRB may not necessarily work well in another. It is 

       important to acknowledge that our highlighting a promising approach at one institution 

       does not necessarily mean that other institutions have not developed similar approaches. 


       Many of the issues raised in this report are addressed more fully in our parallel reports. 

       One report, Institutional Review Boards: Their Role in Reviewing Approved Research, 

       finds that IRBs are devoting minimal attention to their continuing review responsibilities 

       and identifies key obstacles responsible for that situation. Another, Institutional Review 

       Boards: The Emergence of Independent Boards, finds that independent IRBs are 

       becoming a significant force and addresses the advantages and disadvantages they 

       present. A third, Institutional Review Boards: A Time For Reform, provides an overview 

       of IRB functioning and presents recommendations emerging from our inquiry. 


       Our overall inquiry draws on a rich variety of sources. These include interviews and 

       group discussions with representatives of about 75 IRBs of varying sizes and auspices;” 

       government documents and national commission reports produced over the past 25 years; 

       articles and books addressing human-subject protections; Federal records on IRBs; 

       attendance at IRB meetings; site visits with FDA inspectors; site visits to 6 IRBs based in 

       academic health centers” where extensive research is taking place;12 issues raised on an 

       e-mail forum by those associated with IRBs. We focused on the IRB system as a whole 

       and on the environment in which IRBs function. We did not conduct an audit of their 

       operations, nor did we carry out an investigation of specific IRBs or of specific research 

       plans reviewed by IRBs. 


       We conducted this study in accordance with the Quality Standards for Inspections issued 

       by the President’s Council on Integrity and Efficiency. 



                                                2            OEI-01-97-00191 IRBs: Promising Approaches
                        INSTITUTIONAL          REVIEW       BOARDS: THE BASICS

What Do They Do?
 The responsibilities of IRBs fall into two main categories: initial review and continuing review of research
 involving human subjects.
 Initial Review: IRBs review and approve a research plan before the research is carried out. This review
 encompasses the research protocol, the informed consent document to be signed by subjects, any
 advertisements to be used in recruiting subjects, and other relevant documents. In carrying out this review,
 the boards seek to ensure that any risks subjects may incur are warranted in relation to the anticipated
 benefits, that informed consent documents clearly convey the risks and the true nature of research, that
 advertisements are not misleading, and that the selection of subjects is equitable and justified. IRBs focus
 much attention on the informed consent document because it is the vehicle for providing information to
 potential research subjects.
 Continuing Review: The continuing review process is multifaceted and includes required reviews “at an
 interval appropriate to the degree of risk but not less than once per year.” In addition to this continuing
 review, study amendments and reports of unexpected adverse experiences by subjects are received
 periodically and reviewed to ensure that the risk-benefit ratio of the research has not changed and remains
 acceptable.

Why Were They Established?
 As public awareness and concern about the treatment of human subjects in research increased, the need for
 additional review mechanisms was evident. These concerns grew from stories of the abuse of subjects during
 the World War II trials at Nuremberg, the promotional distribution of thalidomide resulting in numerous
 children born with birth defects, the administration of cancer cells to chronically ill and senile patients at a
 hospital in New York, and others. A 1966 article by Henry Beecher brought prominent attention to human
 research abuses in medical schools and hospitals citing 22 cases involving highly questionable ethics. The
 formal requirements for the establishment of IRBs were outlined in regulations stemming from the National
 Research Act of 1974 and in FDA regulations issued in 1981.

Where Are They Located?
 An estimated 3,000-5,000 IRBs can be found across the country. They are most commonly associated with
 hospitals and academic centers. Boards also exist in managed care organizations, government agencies (such
 as the National Institutes of Health, the Centers for Disease Control, and State governments), or as for-profit
 entities that are independent of the institutions in which the research takes place.

How Are They Organized?
  Federal regulations require that boards have at least five members with varying backgrounds. At least one
  member must have primarily scientific interests, one must have primarily nonscientific interests, and one must
  be otherwise unaffiliated with the institution in which the IRB resides. A quorum, with at least one member
  whose interests are primarily nonscientific present, is needed for voting.

How Does the Department of Health and Human Services (HHS) Oversee Them?
  Two agencies within HHS share responsibility for IRB oversight: the Office for Protection from Research
  Risks (OPRR) in NIH and the FDA. The OPRR’s main tool for oversight is the assurance document. Any
  institution that intends to conduct HHS-funded research must have an assurance on file with OPRR. The
  assurance is a written statement of an institution’s requirements for its IRB and human-subject protections.
  Institutions consistently conducting multiple HHS-supported studies are eligible for a multiple project
 assurance (MPA) which can be renewed every five years. Institutions with smaller HHS-funded workloads,
 however, use a single project assurance (SPA) for each such project it conducts. The OPRR also conducts a
 small number of site visits. The FDA’s main mechanism for IRB oversight is the inspection process. The
 FDA also inspects research sponsors and scientists (known as research investigators).




                                                        3             OEI-01-97-00191 IRBs: Promising Approaches
                           Management of the Workload

Issue
        IRBs across the country are inundated with research proposals and related documentation.
        The number of proposals being submitted to the IRB has grown significantly. With the
        emergence of large, multi-center trials, the
        number of adverse-event reports submitted to       One IRB we visited reported that between
        the IRB has also risen dramatically. The           1986 and 1996 the annual number of full-
        escalating volume of work, combined with the board reviews increased from 1450 to
        increase in adverse-event submissions has          2659, expedited reviews from 301 to 58 1,
        greatly added to the paperwork burden that         amendments from 435 to 1011, and
        IRBs face. As the field of clinical trials         adverse-event reports from 50 to 200.
        becomes increasingly competitive, IRBs are
        under enormous pressure to review protocols quickly. The challenge for these boards is
        to find mechanisms to review protocols thoroughly and efficiently in a way that does not
        place the thrust of the increased burden on volunteer members’ time.


Federal Reference Points
        The HHS regulations, which are overseen by the Office of Protection from Research
        Risks (OPRR) in the National Institutes of Health (NIH), require that institutions make
        provisions for meeting space and sufficient staff to support the IRB’s review and record
        keeping duties. I3 The Food and Drug Administration (FDA) regulations have no such
        counterpart. Both sets of Federal regulations require that an IRB be composed of a
        minimum of five members. There is no maximum size.14 However, OPRR cautions that
        while an IRB can have as many members as is necessary to perform its duties effectively,
        care should be taken that the board does not become so large that its management
        becomes cumbersome.‘5 In their written guidance to IRBs, neither FDA nor OPRR go
        beyond staffing and membership requirements to address measures of efficiency, such as
        turnaround time or the ratio of protocols to reviewers.


Promising Approaches
Develop an Institutional   Infrastructure   to Assist Research Investigators

        Support for clinical investigators, which can range from minimal assistance to formal
        protocol management, occurs at the departmental level at many institutions. The
        Massachusetts General Hospital Cancer Center in Boston has developed a comprehensive
        centralized protocol management office to assist researchers with all aspects of the
        clinical trial. Sixteen research associates assist investigators with protocol development,
        submission to appropriate departments, and management. The office also provides


                                                 4            OEI-01-97-00191 IRBs: Promising Approaches
       education for investigators, and includes a quality-control function to ensure regulatory
       compliance. The IRB told us that protocol management by the cancer center has
       dramatically improved IRB efficiency. Officials in the cancer center say it has been vital
       to improving investigator awareness of how to run a good clinical trial.

       In an effort to strengthen the role of clinical research, many institutions are developing
       clinical research programs intended to increase coordination among offices responsible
       for clinical research, provide training for investigators, and strengthen biostatistical
       support and scientific review. It is too early to analyze the returns of these programs. It is
       expected, however, that these programs should help the mission of the IRB through
       ensuring that protocols submitted to the IRB are more complete and have gone through
       appropriate review channels.

Pre-review Research Protocols

       Many institutions are beginning to initiate methods of pre-review in an effort to ensure
       that protocols reviewed at full-board meetings are as complete as possible. A recent
       survey found that IRBs most commonly reject proposals because of improperly designed
       consent forms (54 percent), poor study design (44 percent) and scientific merit (14
       percent).16 New protocols at Roswell Park Cancer Institute in Buffalo are assigned to two
       members of the Scientific Review Committee who check for missing information,
       scientific originality and significance, and for overall scientific merit.17 If the reviewers
       find problems with a protocol, they contact the investigator for clarification. These
       problems must be resolved before the protocol can be presented to the full board.
       Protocols have improved, as has efficiency, since the Scientific Review Committee was
       established a decade ago. Staff at Roswell Park Cancer Institute believe that such a
       committee would be an asset at many institutions, yet they warn that it would require
       resources, committee member time, and an another layer of review for investigators.

       Pre-review can also be done by IRB members or outside experts. At Albany Medical
       Center in New York, an IRB subcommittee composed of three persons (two primary
       reviewers and a staff member) resolves issues with investigators prior to a full-board
       meeting. This process greatly reduces the meeting length by eliminating fact-finding and
       one-on-one discussions between the investigators and IRB members. Using this system,
       they have reduced the length of the IRB meeting by half, increased IRB member
       attendance, and increased the time spent on human-protection issues. The Toledo
       Hospital in Ohio relies on a statistician to pre-review protocols for methodological rigor
       and to help with the consent form.

Develop Well-focused Applications

       Many IRBs are revising their protocol application forms in an effort to elicit clearer and
       more complete explanations. Protocols that contain complete information regarding the
       conduct of a clinical trial are most meaningful to IRB reviewers and allow the board to
       function with maximum efficiency. Massachusetts General Hospital in Boston has



                                                             OEI-01-97-00191 IRBs: Promising Approaches
       revised its form so that       II
       investigators are required to       Outline of Points to be Covered in the Research Protocol
       check off information                            Item #2: Specific Aims/Objectives
       detailing when informed
                                         Old protocol application: ” In outline form, state clearly the
       consent will be obtained, by      objectives of the research.”
       whom, and from whom.
       Children’s Hospital of Boston Revised protocol application: ” The objectives should give a
       has also successfully revised     concise statement of the hypotheses. The study design should
       their application form (see       be capable of answering these hypotheses. In short, the
                                         question: “What will be learned from the proposed study?”
       box). Other institutions use
                                         should be answered. Objectives should appropriately
       techniques such as including      correspond to the phase of the study. For each objective
       sample consent forms in the       listed, the protocol should adequately address how the
       application form, providing       answers are to be obtained. Often questions arise because
       checklists of information that    protocols are submitted with objectives that are not
                                         answerable by the research proposed.”
       must be included with the
       protocol application, and         From Children’s Hospital of Boston Protocol Application,
       creating a single form that can Committee on Clinical Investigation
       accommodate a variety of
       types of research.


Increase the Number of IRE3s and/or the Number of Meetings

       The mounting workload can be too much for one IRB to handle. For example, the
       University of Rochester in New York used to have one IRB to review 1,700 active
       protocols. The institution recently created four boards (two medical, one behavioral, and
       one dental) from the original IRB to divide up the workload and to ensure greater
       reviewer expertise. Another option is to have multiple, general-purpose IRBs and stagger
       the meetings. For example, Washington University in Saint Louis staggers the meetings
       of its four IRBs so there is an IRB meeting every week. Yet another approach is to rely
       on alternative members. At the University of Kentucky in Lexington, each IRB member
       on the medical IRB has an alternate who has a similar medical background. Between the
       members and the alternates, the University of Kentucky is able to hold an IRB meeting
       four times a month.

       There are, however, some concerns with using these approaches. Many of these
       institutions are struggling with issues of how to ensure consistency among the various
       IRBs, how to attract a sufficient number of qualified IRB members and alternates, and
       how to ensure that specialty IRBs do not focus solely on the behavioral or medical aspects
       of a research proposal at the exclusion of other concerns.

Require Research Investigators       to Assess the Importance       of Adverse-Event     Reports

       IRBs are deluged with adverse-event reports from the multi-center clinical trials they
       oversee. Many of these reports are difficult to interpret because they are sent to IRBs as
       individual action reports and convey no trend information. The University of Nebraska

                                                    6             OEI-01-97-00191 IRBs: Promising Approaches
      Medical Center IRB at Omaha is one of a number of IRBs that require investigators to fill
      out an accompanying adverse-event report form to assist the IRB in performing a risk
      assessment. These forms seek investigators’ advice concerning the relationship of the
      adverse event to the intervention, whether or not a change in a protocol is necessary, and
      whether or not information about the adverse event is germane to consent and/or re-
      consent. The thinking behind these forms is that investigators are in the best position to
      determine the significance of adverse-event reports. Furthermore, it forces the
      investigators to stay abreast of all adverse-events that they submit to the IRB.

Employ Technology to Relieve Burden on IRB Staff

      Using an electronic database can minimize clerical work, assist the IRB in keeping track
      of studies, and allow for coordination among multiple IRBs. Although we found no IRBs
      that have the capability to allow investigators to submit protocols electronically, many
      IRBs told us they are moving in that direction. New database technology will allow for
      efficiencies such as on-line adverse-event reporting, electronic interaction with other
      clinical departments, and on-line updates for research investigators on the status of their
      protocols. The hope is that by giving investigators better tools, IRBs will receive better
      protocols thus allowing for more time to be spent at full-board meetings on human-
      subject protection issues. While many institutions embrace the idea of employing
      technology to relieve the burden on IRB staff, many cite the necessary financial
      investment as a barrier.




                                               7           OEI-01-97-00191 IRBs: Promising Approaches
          Educational Outreach to Research Investigators

Issue
        Research investigators and their stafr8 must be well-informed of the IRB’s role and
        significance for the system of human-subject protections to work effectively. However,
        education about human-subject protections is not necessarily part of an investigator’s
        formal education. Investigators often have incomplete knowledge of when and how
        research protocols must be submitted. In some cases, they may not be aware of what
        constitutes adequate informed consent or they may have difficulty in distinguishing
        between clinical care and research. Since the late 1970s a number of national
        commissions and groups have called for a greater emphasis on investigator education.”


Federal Reference Points
        The OPRR Multiple Project Assurance requires the institution to make a copy of the
        assurance available to investigators and staff. In a “Dear Colleague” letter, the OPRR
        suggests that IRBs make investigators aware of policies regarding continuing review and
        women and minorities in research, but does not specify how this educational outreach
        should occur.2o The FDA Information Sheets for IRBs and Clinical Investigators provide
        no guidance to IRBs on educational outreach to investigators and their staff.


Promising Approaches
Lectures, Conferences and Workshops

      At the University of Washington in Seattle, the IRB director conducts 25-30 presentations
      annually to persons involved with human-subjects research. Compared with many of the
      IRBs we interviewed, this represents a high volume of educational outreach.
      Approximately one-third of these presentations are oriented toward faculty members and
      research staff, the remaining two-thirds toward graduate and post-doctoral students. Each
      seminar, which lasts up to one and a half hours, addresses the history of the IRBs, major
      principles of the Federal regulations, and specifics the IRBs look for when reviewing
      protocols. The sheer number of presentations conducted means that most research
      investigators interested in attending a presentation will, most likely, find a convenient
      time to do so. Ensuring this convenience demands a significant commitment from the
      director, because each presentation entails five to six hours of work between the
      preparation, and the presentation itself.

      At the University of Minnesota Academic Health Center, research investigators attended
      a mandatory 2-day course on the responsible conduct of research, a component of which


                                               8           OEI-01-97-00191 IRBs: Promising Approaches
       is human-subjects protections. The Dean of Medicine will not approve an investigator’s
       protocol unless he or she has fulfilled this requirement. One IRB administrator told us
       that this type of education sends a powerful political message to all investigators.

       The University of Minnesota also employs a full-time education coordinator. Working
       with the various departments and deans to determine the education needs of investigators,
       she assesses,plans, and evaluates appropriate educational programs. A large number of
       investigators attend these educational sessions. As a result of these requirements, the IRB
       has seen a heightened awareness among researchers about the need to submit research
       proposals to the board.2’ The IRB has also noted an improvement in important aspects of
       the submitted protocols, for example, the consent document.

       At many institutions, clinical coordinators handle the daily tasks of research, (e.g.,
       obtaining informed consent, maintaining records, etc.) As such, their education is crucial
       to human subjects’ protections. However, in many cases, coordinators have little
       understanding of what human-subject regulations are or why they exist. To address this
       problem, Massachusetts General Hospital (MGH) has recently begun offering a 2-day
       course for coordinators through its Clinical Research Program. Topics include: roles and
       responsibilities of the investigator, sponsor, research staff, and coordinator; U.S.
       regulations and guidelines, research documentation, recruiting subjects, and obtaining
       informed consent. Currently, data does not exist to show the impact of the program, but
       people at MGH are enthusiastic about it and are planning to offer more courses for
       clinical coordinators.

On-line Tutorials

       The NIH requires completion of an on-line tutorial for research investigators and all other
       individuals involved with human subjects research. The tutorial explains the purpose and
       history of IRBs and practical matters such as when research must be submitted to the
       IRB. This tutorial, which can be completed at an investigator’s convenience, provides a
       base level of knowledge at low cost; the only significant cost associated with the tutorial
       is the initial development fee. Because of this practice, one official states, “ignorance of
       the regulations will never be an excuse [at NIH].” The disk is a “nuts and bolts” approach
       that any IRB could use. It is available on the internet at the NIH home page?2

Computer-assisted   Literature   Monitoring

       An IRB’s ability to protect human subjects is reliant on informed and compliant
       researcher investigators who are aware they must submit their protocols to the IRB. The
       University of California at San Diego (UCSD) recently initiated a computer-assisted
       literature monitoring program to detect maverick researchers. Every week the UCSD IRB
       runs a search of new publications containing the heading ‘human’ and an author address
       containing the words ‘Diego’ or ‘Jolla’. Word matching algorithms are used to rank the
       similarity of each citation to the research projects in the IRB database. If a tentative




                                                9           031-01-97-00191 IRBs: Promising Approaches
       match of a publication to a project is
                                                          An Efficient Means of Improving
       made, a letter requesting confirmation of
                                                             Awareness and Compliance
       the match is sent to the investigator.
       Where no match can be made, a query           Using computer-assisted literature
       letter is sent to the investigator            monitoring, the University of California at
       requesting he/she contact the IRB office.     San Diego was able to identify 132 recent
       The program has become so successful          publications by UCSD researchers. Thirteen
       that investigators are now preempting         of these had no record of being submitted to
       the IRB by sending their abstracts before     the IRB and resulted in counseling of the
       the IRB runs its search. To perform           research faculty involved. According to the
       computer-assisted literature monitoring,      IRB, “this has been a valuable, low cost
                                                     method of improving awareness of and
       an IRB does not necessarily need
                                                     compliance with human-subjects regulations
       advanced computer capability. Private
                                                     among faculty members.”
       vendors offer low-cost search services;
       alternatively, IRB staff can run manual
       searches.

Websites and Manuals

       An IRB’s staff may not have the time to conduct conferences, seminars or other
       interpersonal education. Websites and manuals are an alternative. Once developed, they
       are effective and low cost educational tools. Websites have become a popular method for
       sharing information regarding policy, IRB memberships, meeting dates, deadlines, and
       events. At Baylor University in Texas, all investigators receive a manual from the
       institution that includes topics such as the definition of research, how to write protocols,
       and requirements of the IRB. According to the IRB administrator, the manual has been
       extremely helpful. For example, one anesthesiology resident called her to find out how to
       write a research protocol. She sent him the manual and four days later received back a
       “beautifully-written”   research protocol. Responses from other users have also been
       positive. Making websites and manuals available for investigators and their staff also
       frees up time for the IRB staff as investigators are less dependent on them for
       information.

Use of Standardized   Education   Language

       The University of Nebraska has developed standardized educational language for the
       review letters it sends out to investigators. They have categorized standardized
       statements into three broad areas: problems with protocols, problems with informed
       consent documents, and general-reminder language. A typical problem might be that an
       investigator has not clearly indicated how he/she intends to assess the subject’s
       understanding of the research. In cases such as these, the IRB will send the investigator a
       letter with suggestions. These suggestions are all kept coded on a computer. At the
       stroke of a key, the administrator can insert the language into a customized letter. The
       use of standardized language can eliminate a page and a half of typing for the
       administrator. The University of Nebraska has been using this method for 15 years. Over


                                                10          OEI-01-97-00191 IRBs: Promising Approaches
       this time, the chair has been using fewer standardized statements as investigators are
       submitting more complete and well thought out protocols.

Use of Explicit Investigator   Assurances

       A research investigator’s desire to be in compliance with Federal regulations can easily be
       frustrated by unclear explanations of what these requirements are. One institution, for
       example, had difficulties with investigators making modifications to approved research
       without IRE3consent. Part of the problem was a vague statement investigators were
       required to sign verifying they met Federal regulations. The statement failed to explain
       explicitly what was entailed in compliance. To solve this problem, this institution created
       a form that clearly states the investigator will:

               “obtain voluntary and informed consent of subjects, submit to the IRB any
               adverse events, give progress reports, obtain prior approval from the IRE3before
               amending or altering the project or before implementing changes in the approved
               consent form, maintain documentation of IRE3 approval for at least three years
               after the project has been completed, and treat subjects in a manner specified in
               this form.”

       According to the IRE3administrator, this practice has been extremely beneficial in
       educating investigators. A greater number of investigators are now aware that changes to
       an approved protocol must also be reviewed by the IRB.




                                               11           OEI-01-97-00191 IRBs: Promising Approaches
               Continuing Review of Approved Research

Issue
        Continuing review of approved research is vital to the protection of human subjects. The
        mounting workloads, new advances in biomedical research, and the growing public
        interest in experimental therapy as a way to access medical care make the continuing
        review function of IRBs increasingly important. Our inquiry and other studies indicate
        that due to heavy workloads and lack of institutional support many IRBs devote only
        minimal time to continuing review and to active oversight of the informed consent
        process.23 The current system of adverse-event reporting contributes to the difficulty
        many IRBs face in adequately overseeing multi-center trials.


Federal Reference Points
        The Federal regulations outline the minimum requirements for continuing review of
        approved protocols: IRBs must conduct periodic review of approved protocols at intervals
        appropriate to the degree of risk, but not less than once a year; and they have the authority
        to observe, or to have a third party observe, the consent process and the research.24 As
        such, the regulations allow for great flexibility in the quantity, quality, and depth of
        continuing review. In an effort to strengthen the continuing review function, the FDA
        and OPRR have issued a number of guidelines in recent years. In a 1995 guidance, the
        OPRR called for continuing review to be “substantive and meaningful.”


Promising Approaches
Involve a Third Party in Overseeing the Consent Process

        Ensuring that subjects are adequately informed about participating in research is central to
        the mission of the IRB. Yet, our inquiry and other studies found that although IRBs have
        the authority to observe, or to have a third party observe, the consent process they rarely
        invoke this authority. IRB reviews of informed consent are limited almost entirely to
        paperwork reviews.25 The following are examples of ways in which several IRBs,
        through the use of a third party, actively oversee the consent process. Many of these are
        in accord with the recommendations of the Advisory Committee for Human Radiation
        Experiments.26

        A research intermediary interacts with all psychiatric research subjects at the University
        of Texas Health Science Center in Houston.27 Because it might be considered obtrusive
        in the subject-researcher relationship, the research intermediary does not directly observe
        the consent process. Instead, she discusses the consent form with a subject after the form
        has been signed to ensure that the subject understood its terms and that upon reflection


                                                 12           OEI-01-97-00191 IRBs: Promising Approaches
      the patient continues to want to
                                                     Benefits of Using a Research Intermediary
      participate in research. According
      to the IRB, patients who go through     The research intermediary at the University of Texas
      this process make better research       Health Science Center in Houston acts as a liaison between
      subjects because they are sure of       the subjects and the researchers. Every few months she
      why they are participating and they     reports to the IRB about patients’ concerns and the ways in
                                              which the consent process and/or research could be made
      are clear about their relationship to
                                              more efficient and less obtrusive for patients. The research
      investigators.                          intermediary also shares with the IRB how the consent
                                              process really works, which is something that many IRBs
      Patient advocates provide additional    areunawareof.
      oversight for subjects involved in
      risky and/or complex protocols at the Massachusetts General Hospital (MGH) in Boston.
      Typically they are involved in gene therapy protocols, Phase 1 studies;’ and protocols in
      which decisions about participating in research must be made quickly. Patient advocates
      observe the consent process to ensure that subjects understand that they are voluntarily
      participating in research. Currently, most of the patient advocates are physicians.
      However, MGH is in the process of establishing an Office of Patient Advocates. The
      advocates, most of whom will be trained social workers, will be available 24 hours a day
      to oversee or participate in the consent process.

      Some IRBs have begun to require or recommend counseling of research subjects to
      ensure that they understand the consequences of research. Roswell Park Cancer Institute
      in Buffalo requires genetic counselors for cases in which the implications of genetic
      testing are not fully addressed in the consent form. The University of Washington
      recommends financial counseling for Phase 1 oncology protocols, where study expenses
      are often not covered by the research sponsor or the subject’s insurer.

Review Recent Copies of Signed Consent Forms

      At the reapproval stage, investigators at the University of Kentucky in Lexington are
      required to submit to the IRB copies of signed consent forms for the two most recent
      subjects. This allows the IRB to check if the consent forms being used are the most
      updated and if they have been properly signed. The best indicator of the efficacy of this
      approach, according to the IRB director, is that the IRB has found problems with several
      investigators’ consent forms. A downside, however, to this approach is that subject
      confidentiality is broken. The IRB members reviewing consent forms for an AIDS trial
      know that those consenting are HIV positive.29 The IRB director believes that this
      practice is a particularly useful tool for large IRBs which are unable to review all consent
      forms for each approved protocol.

Develop a Comprehensive    Continuing    Review Form

      A well-focused application can assist an IRB in providing a thorough and efficient initial
      review. Likewise, a well thought-out continuing review form can assist an IRB in
      identifying potential problems or concerns in approved protocols. The University of


                                               13             OEI-01-97-00191 IRBs: Promising Approaches
       Nebraska Medical Center IRB at Omaha recently revised its continuing review form so
       that it asks more probing questions (see box).30 The revised form requires that the
       investigator, who is most
       familiar with the protocol,     IRB Application for Continuing Review of Therapeutic Research
       assist the IRB in assessing
       the recruitment of subjects: Old
                                     .
                                          continuing review application:
                                               Did any subject suffer an unanticipated adverse event or
       problems and                            injury during the study?       Yes         No
       complications, the process
       of consent, and the risk-     New continuing review application:
       benefit relationship. As a    .	        Did any subject suffer an unanticipated adverse event which
       result of using this form,              was  reported to the IRB since the last IRE3review? If the
                                               answer is yes, specify the number of reported events and
       the IRB has been able to                describe briefly their nature and significance.
       detect, and avert, problems
       at the reapproval stage.      .	        Did any subject suffer an unanticipated adverse event which
                                                 has not vet been reported to the IRE% If the answer is yes...
Establish a “Re-review”                 .	       Was there any increase in the frequency of serious but
Mechanism                                        expected adverse events? If the answer is yes...

       The Federal regulations         .	       Since the last IRB review were any serious external adverse
       require that IRBs review                 events reports submitted to the IRB? If the answer is yes...
       approved protocols at
                                       From the University of Nebraska Medical Center at Omaha
       intervals appropriate to the
       degree of risk but not less
       than once a year.” Yet, our inquiry and other sources found that IRBs typically carry out
       the continuing review requirement in a hurried manner, generally relying on
       administrative staff and on investigators’ self-assessments.‘* Unless there is cause for a
       thorough review, the IRB generally spends minimal time discussing approved protocols.
       To enhance the continuing review function, several institutions have established a “re-
       review” mechanism. Children’s Hospital of Boston requires that on the third anniversary
       of a protocol’s initial approval investigators submit the protocol to the IRB as an initial
       protocol. This system forces investigators to revise the protocol, where necessary, and to
       compile all amendments and adverse events into one document. This approach can help
       IRB members stay abreast of rapidly changing protocols. The re-review system is not a
       substitute for meaningful continuing review, but it helps to ensure that long-term
       protocols receive scrutiny at regular intervals.




                                                    14             OEI-01-97-00191 IRBs: Promising Approaches
                  Educational         Outreach to IRB Members

Issue
        With the mounting workload pressure, few IRBs have the time or resources for
        educational outreach to IRB members. Most IRBs provide minimal orientation for new
        members, usually covering just the Federal regulations and IRB procedures. Yet given
        the growing complexity of protocols, ongoing training is increasingly critical for both the
        physician and lay member. New areas of research, such as xenotransplantation and gene
        therapy, raise complicated ethical questions that may not be immediately apparent to
        many reviewers. Several IRBs told us that when they do offer ongoing member training,
        few physicians have the time to attend.


Federal Reference Points
        The OPRR guidebook states that IRB members and others charged with the responsibility
        of reviewing and approving research should receive detailed training in the regulations,
        guidelines, and policies applicable to human-subject research.33 The OPRR and FDA
        sponsor a number of conferences for IRB members and administrators.34 The OPRR
        guidebook explicitly encourages IRBs to support their members in attending workshops
        focused on IRB functioning.” The FDA Information Sheets for IRBs and Clinical
        Investigators provide no guidance on educational outreach to IRB members.


Promising Approaches
Provide Protocol Specific Education

        Staff at the University of Kentucky in Lexington believe that an IRB gets the best results
        by tying educational outreach to the specific protocols being reviewed. When complex
        protocols come up for review--for example, those involving genetic testing, AIDS, or
        children--staff members copy relevant pages of the OPRR guidebook and send them to
        members. According to the IRB director, this approach is particularly beneficial to help
        orient new members to the ethical issues they should consider when reviewing protocols.
        A downside, however, of this type of education is the requisite resources and staff. For
        this approach to work, staff need to pre-screen protocols, determine relevant literature,
        photocopy and distribute the necessary materials.

        Independent Review Consulting in California routinely includes several articles in each
        members’ agenda packet. Designed to stimulate thought and discussion on a broad range
        of topics, the articles are culled from both the lay and medical press. Topics have
        included health care management, medical devices, and the inclusion of women and
        minorities in clinical trials, as well as consent and protocol issues. According to the IRB


                                                 15          OEI-01-97-00191 IRBs: Promising Approaches
      director, this approach has helped facilitate openness among members and raise
      awareness.

Use Portion of IRB Meeting to Educate Members

      At the University of Texas Health Science Center in Houston, the first ten minutes of
      each IRB meeting is devoted to the continuing education of IRB members. Recent topics
      have included problems in the designs of AIDS studies, statistical issues in study design,
      and ways of improving the IRB’s efficiency. One benefit of this type of education is the
      ripple effect it can have with other researchers in the institution. For example, after a
      recent meeting where AIDS trials were discussed, two of the physician members shared
      the discussion with their residents. According to the IRB coordinator, the ongoing
      education has been helpful in increasing members’ awareness of human-subject
      protections and in maintaining their tenure on and interest in the IRB.

Host Annual Trainings   for IRB Members

      Western Institutional Review Board of Olympia has hosted annual trainings for 14 years.
      Originally the trainings were intended for Western board members only. Now they have
      been opened it up to other IRB members. Last year, about 200 people attended the all day
      training seminar. Speakers at the seminars vary, but they generally address the following
      topics: someone from FDA provides an update on the regulations, someone speaks on the
      ethical aspects of research, an investigator speaks about the impact of IRB decisions on
      research, and someone from a pharmaceutical or device company speaks about how IRB
      rules and regulations affect their business practices.

      According to the IRB director, the annual training sessions have been helpful in making
      members feel secure in their decisions. The sessions give members a chance to ask their
      questions of someone knowledgeable and then allows them to go back to their IRB with
      confidence. The training sessions are also helpful for giving members a well-rounded
      picture of the role of the IRB and how its decisions effect the parties involved.




                                              16          OEI-01-97-00191 IRBs: Promising Approaches
        Broadening; Perspectives in the IRB Review Process

Issue
        Scientific knowledge is necessary but not sufficient for the IRB review process. The
        large number of scientists who serve on IRBs ensure ready access to medical and
        methodological knowledge that is of great value to the IRB in assessing the risks and
        benefits of research protocols submitted to it. This specialized knowledge, however, can
        have a downside. Investigators may inadvertently express a tendency to stress the
        benefits rather than the risks of research, overlook just how well subjects understand the
        informed consent document, or give insufficient attention to the diversity of subjects
        recruited. The inclusion of nonscientific members, noninstitutional members, and
        bioethicists on IRBs can be an important counterbalance to these tendencies. These
        members can help ensure the IRB remains sensitive to the needs and concerns of subjects
        and thereby assists the IRB in its goal of protecting human subjects.


Federal Reference Points
        Of the five IRB members required by Federal regulations, there must be at least one
        whose primary concerns are in nonscientific areas and one who is not otherwise affiliated
        with the institution. In many IRBs, one member fills both roles. The OPRR guidebook
        suggests that the nonaffiliated member should represent the local community, “should not
        be vulnerable to intimidation by the professionals on the IRE3,and their services should be
        fully utilized by the IRB.‘“6 The importance of the nonscientific and nonaffiliated
        members has been heightened by recent guidance concerning the inclusion of women and
        minorities in research.37


Promising Approaches
Enable Nonscientific   and Noninstitutional   Members to Play a Significant Role

        Given the importance of achieving a balance as noted above, we searched widely for
        examples of IRBs with innovative approaches to recruiting, training and supporting their
        nonscientific and noninstitutional members.38 Few came to our attention.

        We found that many IRBs achieved some broadening of perspectives by reaching out
        within their hospital communities to social workers, attorneys, hospital executives, and
        even IRB administrative staff. These individuals, however, are affiliated with their
        research institutions and strictly speaking, are not unbiased “outsiders”. Some of these
        same IRBs indicated they sought more outside members but with little success, noting the
        difficulties of finding persons who were willing to work long uncompensated hours.”



                                                17          OEI-01-97-00191 IRBs: Promising Approaches
       Through our research, we found several examples of nonscientific, noninstitutional
       members (that is, a single member who satisfies the requirements for having a
       nonaffiliated and a nonscientific perspective on the board) who had come to play an
       important continuing role in helping the IRB broaden its perspective. In one case, the
       IRB contributed significantly to this development by funding the member’s participation
       at an IRB conference. More typically, the members drew on the knowledge and skills
       they brought with them to the IRB and lessons they learned during the course of their IRB
       service. These nonscientific, noninstitutional members told us they brought a very
       different voice to the IRB’s deliberations, particularly when they raised nettlesome issues
       such as confidentiality or the adequacy of researcher’s efforts to reach out to diverse
       populations. As non-researchers, they also tend to assess the risk/benefit ratio more
       critically. They may view research more from the vantage point of a subject.
       Consequently, they are able to understand the vulnerability subjects often feel.

       The other IIU3 members and staff we spoke with also stressed the importance of the
       balancing role played by these pro-active community members. Yet, along with
       expressions of appreciation, they voiced some apprehension that these members can slow
       the deliberation process--not an insignificant consideration given the substantial number
       of research protocols that IRBs must review.

Include a Bioethicist on the IRB

       Bioethicists, although not a substitute for nonscientific/nonaffiliated members, also help
       to broaden an IRB’s perspective. For many years, bioethicists have participated on the
       National Institutes of Health IRBs. Through their training:’ they have become sensitized
       to subtle yet significant ethical issues pertaining to human-subjects research. Because of
       this, they can assist other RI3 members in identifying and deliberating on ethical issues.
       Indeed, a recent survey highlighted the usefulness of this program!’

       As one bioethicist we spoke with noted, “It’s not everyone’s job to be up on research
       ethics, but bioethicists are trained to do that.” For example, bioethicists at NIH have
       raised issues about the clarity of the informed consent document and its treatment of the
       risk/benefit ratio, about the distinction of clinical care from research, and about balancing
       attempts to bring more women and minorities into research without undue inducements.
       Some pointed out, however, that the specialized education of bioethicists is both a benefit
       and a drawback. While on the one hand it makes them more efficient in discovering
       subtle ethical issues, it also makes them more likely to focus on obscure ethical concerns
       which are not necessarily a consideration in human-subject protections. One person we
       spoke with at NIH also mentioned the possibility that other IRB members will feel less
       compelled to bring up ethical concerns when the bioethicist is present.

Provide Community     Outreach

      In response to the 1993 NIH guidelines on the inclusion of women and minorities in
      research, the University of Texas Health Science Center IRB in Houston developed and



                                                18           OEI-01-97-00191 IRBs: Promising Approaches
established an Office of Ethnic
                                                Sample Questions Asked of the Community
Diversity in Research (OEDR).
The OEDR’s mission is to               1. If you did participate in a research activity, what kinds of
broaden the community’s               problems did you encounter?
understanding of health-care
research, to help eliminate           2. What could the University of Texas Health Science Center
                                      do to address the problems you have identified?
cultural and practical
roadblocks to participation in        3. What type of healthcare research would you like us to
research studies, to establish        study that would be beneficial to you, your community,
and maintain rapport with             and/or your organization?
community leaders, and to
                                      4. Please list three things that you could think of that would
ascertain the areas in which the      improve how people in your community feel about
community would like to see           participating in research.
additional research. About
twice a month, a member of the        Questionnaire by the Office of Ethnic Diversity in Research
                                      at the University of Texas Health Science Center in Houston
OEDR makes presentations to
the community. She is usually
accompanied by a health
educator, an IRB member, and/or an investigator from the University. Feedback from the
OEDR’s field visits is reported to the IRB, via the IRB coordinator. The OEDR has
helped the IRB to identify barriers to participating in research and potential strategies to
overcome these barriers. According to the IRB coordinator, many in the community are
unaware of what being a research subject entails and they associate the hospital with
treatment rather than research. This has made the IRB sensitive to the need to further
simplify consent forms in order to impress upon potential subjects that they are
participating in research.




                                             19            OEI-01-97-00191 IRBs: Promising Approaches
            Evaluation of IRB Efficiency and Effectiveness

Issue
        The IRB process is too important not to undergo periodic evaluation. Evaluations can
        help an IRB to determine whether it is effectively protecting human subjects, whether it is
        operating efficiently, and whether it has adequate authority.42 The answers to these
        questions are important not only for protecting human subjects, but also for protecting
        institutions and investigators against liability. Many of the IRBs we spoke with expressed
        an interest in improving their effectiveness and efficiency. However, given the time and
        resource constraints they face, few are able to engage in evaluation activities. One IRB
        administrator remarked that, unfortunately, many IRBs and their institutions only become
        proactive about ensuring the integrity of the process once a concern has been brought to
        their attention.


Federal Reference Points
        Institutions have some obligation, though not extensive, to perform self-assessments. The 

        OPRR multiple project assurance requires offices of research administration to perform 

        procedural and record-keeping audits not less than once a year.43 The FDA and OPRR do 

        not require IRBs to perform evaluations of their effectiveness or efficiency, although both 

        encourage such activities. The FDA Information Sheets for IRBs and Clinical 

        Investigators include a checklist to help institutions evaluate their own policies and 

        procedures; the OPRR guidebook offers some points for IRBs to consider.44 By contrast, 

        evaluation requirements are much stronger for research involving animals. All 

        Institutional Animal Care and Use Committees are mandated to conduct reviews of 

        institutional programs and of animal facilities at least once every six months. 



Promising Approaches
Perform a Full-scale Evaluation    of the Clinical Research Process

        In response to FDA and OPRR concerns about alleged non-compliance with regulations, 

        the University of Minnesota commissioned two evaluations. The first evaluation was 

        performed by an internal faculty advisory committee composed of several researchers, an 

        IRB member, an administrator from Grants and Contracts, and a representative from legal 

        counsel. The faculty advisory committee spent a month speaking with IRB 

        administrators and chairs, researchers, legal counsel, and external consultants about IRB 

        operations and resources. Based on their evaluation, they recommended changes in nine 

        strategic areas. 





                                                20           OEI-01-97-00191 IRBs: Promising Approaches
       To further assure itself that the process was functioning well, the University of Minnesota
       hired an outside monitor to assessprotocols that met internal criteria for risk. These
       protocols were assessed for their level of regulatory compliance. In addition, the monitor
       interviewed research investigators about their interactions with the IRB and their
       experiences with the IRB process. The monitor reported all results to the IRB, including
       a set of recommendations. While the IRB had the option of using an internal auditor for
       this task, they felt it was critical to bring in an external monitor. They felt that an external
       monitor provided a greater level of objectivity. According to the IRB, responses to the
       monitor were extremely positive. In fact, resource-permitting, the IRB would like repeat
       this process in the future.

       The two evaluations were helpful in highlighting areas that needed improvement, such as
       increased resources for the IRB, changes in the reporting structure, and more support
       from the University. The resultant changes have helped to create better relations between
       researchers and the IRB. In retrospect, IRB staff felt that if such an evaluation had
       happened earlier it might have prevented difficulties the IRB was experiencing.

Evaluate a Specific Aspect of IRB Functioning

       Santa Rosa Health Care conducted a year-long evaluation of its continuing review
       procedures to ascertain its compliance with OPRR guidance and to ensure that subjects
       were receiving updated toxicity information in the informed consent document.45 As
       protocols came up for reapproval, the IRB performed an item-by-item comparison of
       toxicities contained in the local consent form to the toxicities contained in the consent
       form supplied by the research base. They also performed a comparison of interim reports
       to the toxicities contained in the local and sample consent forms, a review of drug
       profiles, and a review of product labeling for approved drugs.

      The Santa Rosa Health Care IRB discovered that the majority of protocols had
      incomplete informed consents, that it had been lax in the critical review of initial
      submissions, and that some interim reports failed to provide necessary information so that
      potential risks to study participants could be adequately assessed. As a result, the IRB
      revised the stringency of its initial review of consent forms to include a more thorough
      review of the toxicities listed. The IRB also compiled a reference binder containing a list
      of the more commonly used chemotherapeutic drugs. According to the IRB chair, these
      steps were helpful in strengthening the IRB review process and were also instrumental in
      heightening investigator awareness of the need to submit accurate informed consent
      documents. The evaluation was, however, extremely resource-intensive. The IRB chair
      pointed out that because his IRB had a small workload it was able to put such an
      extensive amount of time and effort into the evaluation--something that larger IRBs might
      not have time for.




                                                 21            OEI-01-97-00191 IRBs: Promising Approaches
                        CONCLUSION
As we noted in the introduction, many IRBs are struggling to keep pace in the rapidly 

changing research environment. Yet, despite the challenges posed by the new research 

environment, a number of IRBs have developed innovative approaches to enhancing their 

effectiveness and efficiency. Many of these approaches are catalogued in this report. 


We did not independently evaluate any approach highlighted in this report. An 

approach’s inclusion does not necessarily mean that it receives our stamp of approval, or 

that it is occurring only at the institution we highlighted. We intend to provide a snapshot 

in time; it is not a definitive study of all IRBs. The report is intended to stimulate 

discussion among the Department, IRBs, and those groups interested in IRB functioning. 

While we have highlighted the work of many IRBs, we may have omitted some 

promising approaches. 


A key challenge to the Federal government is to find ways of giving IRBs the flexibility 

to develop promising approaches while at the same time holding them accountable for 

performance. This a matter we address in our summary report entitled, InstitutionaZ 

Review Boards: A Time For Reform. 





                                         22           OEI-01-97-00191 IRBs: Promising Approaches
                                                                                        APPENDIX A 


                                           Endnotes
1. Over time, as clinical research activities spread to other settings, IRBs were established in
these settings as well. Institutional review boards now exist in a variety of institutions--including
State governments, the National Institutes of Health, universities, managed care organizations,
contract-research organizations, and hospitals (of all kinds). Independent IRBs have also arisen
to review research protocols.

2. Throughout this report, the terms “research investigator” and “investigator” are used
interchangeably. They are used to denote persons leading clinical research studies.

3. The clinical research market is roughly a 4 billion dollar market. It is estimated that about 75
percent of clinical research is industry-sponsored. (Telephone conversation with Kenneth Getz,
Director of Center Watch, 26 May 1998.)

4. 	 While this phenomenon was true for drug studies, the situation was reversed for medical
device studies. The intraocular lenses studies involved thousands of subjects. Most of the
studies were conducted at small community hospitals.

5. Throughout this report, the terms “research plans ” , “research proposals”, and “protocols” are
used interchangeably. They are used to denote proposals submitted by research investigator to
the IRB for review.

6. The primary sources of interaction among IRBs, for those who can afford the fees, are annual
meetings hosted by Public Responsibility in Medicine and Research (PRIM&R) and Applied
Research Ethics National Association (ARENA), and FDA- and NIH-sponsored conferences and
guidance letters. One successful forum for communication has been an electronic mailing list
sponsored by the Office of Research, Technology and Information at the Medical College of
Wisconsin. The goal of the forum is to promote discussion of ethical, regulatory, and policy
concerns with human-subjects research. This has provided an opportunity for over 720 IRBs to
raise issues they are struggling with and to learn from one another.

7. Ruth Ellen Bulger, Elizabeth Meyer Bobby, Harvey V Fineberg, editors, Society’s Choices.
Social and Ethical Decision Making in Biomedicine, (Washington, DC: National Academy Press,
1995) p. 182.

8. 	The National Bioethics Advisory Commission (NBAC) was established by Executive Order
12975 on October 3, 1995. Section 5 of the executive order establishing NBAC states that as a
first priority, NBAC shall direct its attention to consideration of protection of the rights and
welfare of human research subjects.

9. Some of the promising approaches we address are carried out, not by the IRB, but by other
parts of the institutions of which the IRB is a part.



                                                A-l            OEI-01-97-00191 IRBs: Promising Approaches
 10. These IRBs are overseeing research at institutions receiving over 1.4 billion dollars of Public
Health Service (PHS) awards. As of March 1998, these institutions received over 27 percent of
the PHS dollars awarded extramurally for human subject research.



 11. We use the term “academic health centers” in accord with the following definition offered by
Blumenthal, et al: “One of 125 institutions in the United States that consist of at least a medical
school and an owned or closely affiliated clinical facility in which faculty instruct physicians-in-
training. These centers classically conduct teaching, patient care and, in many cases, research.”
(David Blumenthal, Eric G. Campbell, Joel S. Weissman, “The Social Missions of Academic
Health Centers,” New England Journal of Medicine, Vol. 337,20 November 1997, No. 21, pp.
 1550-53.)

12. These six institutions alone account for over half a billion dollars of Public Health Service
(PHS) awards. As of March 1998, these institutions received over 11 percent of the total PHS
dollars awarded extramurally for human subject research.

13.45 C.F.R., sec. 46.103(b)(2).

14. 45 C.F.R., sec. 46.107(a) and 21 C.F.R., sec. 56.107(a). 


15. Office or Protection from Research Risks, Protecting Human Research Subjects: 

Institutional Review Guidebook (U.S. Government Printing Office, 1993), ch. 1, sec. B, p. I-4. 


16. Jeffrey S. Jones et al., “Structure and Practice of Institutional Review Boards in the United 

States,” Academic Emergency Medicine, vol. 3 (August 1996) no. 8, pp. 804809. 


17. This is in addition to determining that the scientific design and methods are adequate for 

achieving the stated objectives. 


18. From here on, references to “researchers” and “investigators” will apply to staff as well. The 

education of research staff is critical as it is often the staff, not the investigators, who conduct the 

daily business of administering research. 


19. These bodies include the National Commission for the Protection of Human Subjects of 

Biomedical and Behavioral Research, the Commission on Research Integrity, Applied Research 

Ethics National Association (ARENA), and the President in his 1997 remarks in apology for the 

study done in Tuskegee. 


20. Dear Colleague letter from the Office of Protection from Research Risks, Subject: 

“Continuing Review -- Institutional and Institutional Review Board Responsibilities”, 

10 January 1995, and Dear Colleague letter from the Office of Protection from Research Risks, 

“Subject: Inclusion of Women and Minorities in Research,” April 25, 1994. 


21. According to the IRBs we interviewed, investigators can be confused about what types of 

research need to be submitted to the IRB. The growth of managed care research, and 



                                                 A-2            OEI-01-97-00191 IRBs: Promising Approaches
particularly quality improvement and outcomes research, is fueling this confusion.



22. The Internet address is http://helix.nih.gov:SOOl/ohsr/cbti.

23. A 1996 report by the U.S. General Accounting Office asserted that continuing reviews “are
typically either superficial or not done at all. According to OPRR officials, IRBs have not always
understood the requirements for continuing review, and, in other cases, IRB workload demands
have reduced the quality of this review. In some cases, IRB administrative staff with no
scientific expertise--not IRB members themselves--review continuing review forms, ensuring
only that the information has been provided. Heavy workload also necessitates that IRBs rely
largely on investigators’ self-assessments in conducting continuing reviews” (U.S. General
Accounting Office, ScientiJic Research: Continued Vigilance Critical to Protecting Human
Subjects, GAO/HEHS-96-72, March 1996, p. 17-l 8.) Our companion report also raises
questions about the oversight process. For more information see, U.S. Department of Health and
Human Services, Office of Inspector General, Institutional Review Boards: Their Role in
Reviewing Approved Research, OEI-0 l-97-00 190.

24. 45 C.F.R., sec. 46.109(e) and 21 C.F.R., sec. 56.109(e).

25. Several recent articles and reports have pointed out the limitations to the informed consent
process. In 1995, Harold Edgar and David J. Rothman reported that IRBs rarely require
third-party observers to oversee the consent process or to examine what actually occurs in the
consent process. (Harold Edgar and David J. Rothman, “The Institutional Review Board and
Beyond: Future Challenges to the Ethics of Human Experimentation”, The Milbank Quarterly,
Vol. 73, 1995. No. 4, pp. 489-506.) A 1996 U.S. General Accounting Office study found that
IRB reviews generally did not involve the direct observation of the research study or the
informed consent process. (U.S. General Accounting Office, Scientific Research.. Continued
 Vigilance Critical to Protecting Human Subjects, GAO/HEHS-96-72, March 1996, pp. 17-l 8.)

According to Reiser and Knudson, the reasons for the infrequent inclusion of a third-party 

observer include: (1) that they would interfere with the consent process; (2) that their presence 

would imply that investigators are not trusted to obtain consent; and (3) that they would 

introduce into the research a new problem--that of finding qualified observers to handle oversight 

tasks such as gaining knowledge about the protocol, learning about the subject and the setting of 

research, and, most important, bringing an impartial view to the analysis. (Stanley Joel Reiser 

and Paula Knudson, “Protecting Research Subjects after Consent: The Case for the ‘Research 

Intermediary”‘, IRB, March-April 1993, pp. lo- 11.) 


26. Recommendation 10, part 2 of the Advisory Commission on Human Radiation Experiments 

 calls for “Mechanisms for ensuring that the information provided to potential subjects (1) clearly
distinguishes research from treatment, (2) realistically portrays the likelihood that subjects may
benefit medically from their participation and the nature of the potential benefit, and (3) clearly
explains the potential for discomfort and pain that may accompany participation in research.”




                                                 A-3               OEI-01-97-00191 IRBs: Promising Approaches
Recommendation 10, part 5 calls for “Mechanisms for ensuring that information provided to
potential subjects clearly identifies the financial implications of deciding to consent to or refuse
participation in research.” (Advisory Committee on Human Radiation Experiments, FinaZ
Report, Washington DC: U.S. Government Printing Office, 1995).



27. For more information about the use of a research intermediary, see Stanley Joe Reiser and
Paula Knudson “Protecting Research Subjects after Consent: The Case for the ‘Research
Intermediary”‘, IRB, March-April 1993, pp. lo- 11.

28. 	 Phase 1 studies are the first of several required clinical trials. Phase 1 trials test the safety of
a drug or device on volunteer human subjects.

29. The IRB deals with this by requiring that investigators tell subjects up front that their
consent forms may be reviewed by the IRB. If this causes a problem for a subject or investigator,
the name of a subject can be deleted prior to IRB review.

30. For more information about this continuing review form, see Bruce Gordon and Ernest
Prentice, “Continuing Review of Research Involving Human Subjects: Approach to the Problem
and Remaining Areas of Concern”, IRB, Vol. 19, March-April 1997, No. 2, pp. 8-l 1.

31. 45 C.F.R., sec. 46.109(e) and 21 C.F.R., sec. 56.109 (e).

32. Based on a 1993 survey of IRBs, Barbara Mishkin commented that “Probably the most
troublesome problem--and the most frequent--was the absence of substantive review at the time
of annual renewals. In a number of IRBs, the staff review annual review reports primarily to
assure that one has been filed and that all spaces on an institutional form have been filled in. In
some instances, even that review is poorly performed, and staff have submitted to the IRB, and
the IRB has actually approved, submissions that are clearly incomplete. For example one IRB
repeatedly re-approved protocols for which the principal investigator (PI) never provided the IND
(investigational new drug) number assigned by the FDA for a new drug under study. Another
IRB repeatedly processed forms on which the PI failed to indicate whether the risks to human
subjects were minimal, moderate, or high.” Barbara Mishkin, “Ethics, Law and Public Policy”,
Professional Ethics Report (a publication of the American Association for the Advancement of
Science), Vol. 7, (Spring 1994), No. 2, pp. 4-6.

33. Office of Protection from Research Risks, Protecting Human Research Subjects.
Institutional Review Guidebook (U.S. Government Printing Office, 1993), ch. 1, sec. B, p. I-7.

34. The OPRR sponsors an average of five national educational conferences per year.

35. Office of Protection from Research Risks, Protecting Human Research Subjects.
Institutional Review Guidebook (U.S. Government Printing Office, 1993), ch. 1, sec. B, p. I-7.

36. Office of Protection from Research Risks, Protecting Human Research Subjects.
Institutional Review Guidebook (U.S. Government Printing Office, 1993), ch. 1, sec. B, p. I-4.


                                                  A-4            OEI-01-97-00191 IRBs: Promising Approaches
37. 	 The NIH guidelines are located in the Federal Register, (59 Fed. Reg. 14,508, March 28,
1994.) The institution’s responsibility is expanded upon in the OPRR Dear Colleague letter,
“Subject: Inclusion of Women and Minorities in Research”, April 25, 1994. The FDA guideline
can be found in a July 22, 1993 guidance entitled “Guideline for the study and evaluation of
gender differences in the clinical evaluation of drugs.”



38. Federal regulations call for at least one IRB member whose concerns are primarily in
nonscientific areas and one member who is not otherwise affiliated with the institution. Some
IRBs rely on a single member to satisfy both requirements.

39. Many IRBs hold their review meetings during business hours.

40. Many of the persons chosen to serve as bioethicists have a background in science and/or
ethics. At the NIH, education is provided for new consultants through a one day training session.
Continuing education and dialogue occurs through group meetings held on alternate months.

4 1. A 1992 poll of 127 NIH IRB members found 63 percent of those polled believing the
bioethicist on their board to be very helpful, 32 percent somewhat helpful and 5 percent not
helpful. In response to the question, “Does the consultant assist you in elucidating or clarifying
bioethics issues,” 80 percent of the members and 100 percent of the chairpersons responded
“yes.” (Evan G. DeRenzo and Frederick 0. Bonkovsky, “Bioethics Consultants of the National
Institutes of Health’s Intramural IRB System: The Continuing Evolution,” IRB, May-June 1993,
pp. 9-10)

42. According to Hayes: “If, in fact, IRBs make mistakes from time to time, a thorough, periodic
evaluation, particularly one done externally, would help to refocus the group’s mission and
objectives.... The IRB process is simply too important not to include a carefully designed
evaluation process, which can help boards stay on task and maintain the quality and objectivity of
their decisions.” (Gregory J. Hayes, Steven C. Hayes, and Thane Dykstra, “A Survey of
University Institutional Review Boards: Characteristics, Policies, and Procedures”, IRB, vol. 17,
May-June 1995, no. 3, pp. l-6)

43. OPRR Multiple Project Assurance, 1997, Part 2, Section II.

44. The encouragement for self-evaluation can be found in (1) the FDA Information Sheets for
IRBs and Clinical Investigators, 1995, appendix H, and (2) the Office of Protection from
Research Risks, Protecting Human Research Subjects: Institutional Review Guidebook (U.S.
Government Printing Office, 1993), ch. 1, sec. B, pp. I-7 through I-8.

45. For more information about this evaluation, see Mary S. Adams and Dennis A. Conrad,
“Annual Review: Observed Deficiencies and Suggested Corrections”, IRB, vol. 18, November-
December 1996, no. 6, pp. l-4.




                                              A-5           OEI-01-97-00191 IRBs: Promising Approaches
